Docket No. 19-_______
IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL HUNTER; MARTIN CASSIDY; CARL CARSON,

Petitioners,

v.
RANDY COLE; KAREN COLE; RYAN COLE,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS OF THE FIFTH CIRCUIT

UNOPPOSED APPLICATION TO ASSOCIATE JUSTICE
SAMUEL A. ALITO, JR. TO EXTEND THE TIME 21 DAYS FOR
PETITIONER TO FILE A PETITION FOR WRIT OF CERTIORARI
William S. Helfand
Norman Ray Giles
LEWIS, BRISBOIS, BISGAARD &
SMITH, LLP
24 Greenway Plaza, Suite 1400
Houston, Texas 77046
(713) 659-6767

James T. Jeffrey, Jr.
LAW OFFICES OF JIM JEFFREY
3200 W. Arkansas Lane
Arlington, Texas 76016
(817) 261-3200

Attorneys for Petitioner

Petitioners Request that Their November 18, 2019 Deadline to File a
Petition for Writ of Certiorari be Extended 21 days as Follows:
Basis for Jurisdiction
This Court has jurisdiction, under 28 U.S.C. § 1254(1), to grant a petition for
writ of certiorari and review the Fifth Circuit Court of Appeals’ En Banc opinion
denying qualified immunity to Petitioners Lt. Martin Cassidy, Officer Michael
Hunter and Officer Carl Carson. Petitioners Cassidy, Hunter and Carson previously
successfully sought a Writ of Certiorari from this Court which granted the Petition,
vacated a Fifth Circuit Court’s panel decision, and remanded for reconsideration in
light of Mullenix v. Luna, 136 S.Ct. 305 (2015), see Hunter v. Cole, 137 S.Ct. 497
(2016). After additional proceedings described in more detail below, the Fifth
Circuit Court sitting En Banc denied the qualified immunity defenses of all three
Petitioners. Petitioner Carson asserts he has qualified immunity to the Fourteenth
Amendment claim against him under the Mullenix framework and the Fifth Circuit
Court’s judgment conflicts with Manuel v. City of Joliet, 137 S.Ct. 911 (2017).
Petitioners Hunter and Cassidy assert qualified immunity to the Fourth Amendment
alleged excessive force claim against them, and assert the Fifth Circuit Court did not
faithfully comply with this Court’s remand order and did not properly apply
Mullenix and other holdings of this Court mandating a factually specific evaluation
of the clearly established law component of the qualified immunity defense when it
instead opted to treat this case as a so called “obvious case” under Tennessee v.
Page 2

Garner, 471 U.S. 1 (1989).
21-Day Extension Requested
Petitioners Lt. Cassidy, Officer Hunter and Officer Carson request that their
current deadline of November 18, 2019, to file a petition for writ of certiorari be
extended 21 days, until December 9, 2019. Respondent does not oppose the
requested extension.
Good Cause for Extension
The attorneys for Petitioners have prepared a rough draft of a Petition for
Certiorari which needs substantial editing, revision, and other preparation which
Petitioners’ attorneys had planned for attorney Norman Giles to conduct during the
week of October 28 and November 4, 2019. Unfortunately, Norman Giles was away
from the office the entire week of October 28 attending to his mother and his family
during his mother’s final illness and her death on November 2, 2019. Mr. Giles
expects to be away from the office the entire week of November 4, 2019 attending
to final arrangements and the funeral for his mother and attending to his family.
Petitioners’ attorneys had initially planned that after Mr. Giles’ edits and
revisions, a revised draft to be returned to their attorney James Jeffrey on or before
November 11, with collaborative final edits and revisions to be made for a timely
delivery to the printer (Counsel Press) in time to meet the current November 18
deadline. Pre-existing scheduling commitments of Attorney Jeffrey and Petitioners’
Page 3

other attorney William Helfand, summarized below, present substantial challenges
for preparing and printing the Petition.
Attorney James T. Jeffrey, Jr. also has the following pre-existing deadlines
and commitments:
1. Dispositive motion briefing and answer in a federal civil rights case - Civil
Action No. 4:19-CV-00696-O, Sherley Woods, et al v. City of Arlington,
et al, in the U.S. District Court Northern District, Fort Worth Division due
November 4, 2019;
2. Dispositive motion response briefing in another federal civil rights case –
Civil Action No. 4:15-CV-00476-Y, Shellie Smith, et al v. City of
Arlington, et al, in the U.S. District Court Northern District, Fort Worth
Division due November 4, 2019;
3. Dispositive motion proceeding reply briefing in another federal civil rights
case – Civil Action No. 4:19-CV-00048-O, Eric Von-Russell Mitchel v.
Detective Barbara Bell, et al, in the U.S. District Court Northern District,
Fort Worth Division due November 4, 2019;
4. Dispositive motion briefing and answer in another federal civil rights case
– Civil Action No. 4:19-CV-00091-P, De’On L. Crane, et al v. City of
Arlington, et al, in the U.S. District Court Northern District, Fort Worth
Division due November 5, 2019;
5. Dispositive motion briefing in another federal civil rights case – Civil
Action No. 3:19-CV-02126-K, John Barto Clark v. City of Burleson, et al,
in the U.S. District Court Northern District, Dallas Division due November
12, 2019;
6. Dispositive motion briefing and answers due for multiple Defendants in a
federal civil rights case – Civil Action No. 4:19-cv-00688, Ronald Schmidt
v. Marla Hawksworth, et al, in the U.S. District Court Eastern District,
Sherman Division due November 14, 2019;
7. Reply briefing in a dispositive motion proceeding due in a federal civil
rights case – Civil Action No. 4:18-CV-00341-P, Joe Lutz v. Bill
Waybourn, et al, in the U.S. District Court Northern District, Fort Worth
Division due November 14, 2019;

Page 4

8. Discovery responses and materials due in a state case – Cause No. DC-1915446, Alicia Limon v. City of Grand Prairie, et al, in the 95th District
Court for Dallas County, Texas due November 19, 2019;
9. Dispositive motion briefing and answers due in a federal civil rights case
– Civil Action No. 4:19-CV-00916-O, Sterling Jonkheer v. Ronny
Desselles, et al, in the U.S. District Court Northern District, Fort Worth
Division due November 21, 2019;
10. Dispositive motion briefing due in a federal USERRA case – Civil Action
No. 3:19-CV-002191-L, Fernando Castillo v. City of Grand Prairie, in
the U.S. District Court Northern District, Dallas Division due November
29, 2019;
11. Depositions in a state case – Cause No. DC-19-06000, Bajro Rizvic v.
Global Gaming Solutions, LLC, et al, in the 193rd District Court for Dallas
County, Texas on December 2, 3, and 4, 2019;
12. Reply briefing in a dispositive motion proceeding due in a federal civil
rights case – Civil Action No. 3:19-CV-001997-M, Robert Paul Cledera
v. United States William Barr, A.G., et al, in the U.S. District Court
Northern District of Texas, Dallas Division due December 5, 2019.
Attorney William S. Helfand also has the following pre-existing deadlines and
commitments:
1. Wednesday, November 6, 2019 – Traveling to New Orleans for Oral
Argument in No. 18-20723, Laura Covington v. City of Madisonville,
Texas, United States Court of Appeals for the Fifth Circuit, on November
7, 2019.
2. Thursday, November 7, 2019 - Oral Argument in No. 18-20723, Laura
Covington v. City of Madisonville, Texas, United States Court of Appeals
for the Fifth Circuit, on November 7, 2019.
3. Friday, November 8, 2019 – Deposition preparation in Cause No. 201919896, David Vanderschee v. Intertek USA, Inc. 269th Harris County,
Texas, on November 8, 2019.
4. Friday, November 8, 2019 – Deposition preparation in Cause No. 201919896, Susan Clifton v. City of Pasadena, 127th Harris County, Texas, on
November 8, 2019.

Page 5

5. Monday, November 11, 2019 – Preparation and deposition in Cause No.
1108033, Cory Curtis and Angela Curtis v. San Jacinto River Authority,
County Civil Court at Law, Number Two of Harris County, Texas, on
November 11, 2019.
6. Monday, November 11, 2019 – Preparing for and attending Motion for
Summary Judgment hearing in Cause No. 2017-85189, Paxton Webb v.
Katz Boutique 6, Inc., et al., 189th, Harris County, Texas.
7. Wednesday, November 13, 2019 – Initial Pretrial and Scheduling
Conference and Order to Disclose Interested Person in Civil Action No.
3:19-cv-00248, Harris, Lyshyra v. Galveston et al., In the Southern
District of Texas, Galveston Division, on November 12, 2019.
8. Wednesday, November 14, 2019 - Deadline for Discovery Period,
Dispositive Motions and Pleas in Cause No. 2018-84235, Clifton, Susan
v. City of Pasadena, 127th Harris County, Texas on November 12, 2019.
9. Wednesday, November 15, 2019 - Docket Call in Civil Action No.,
4:17-cv-03829, Webb, Kimberly v. City of Huntsville, Southern District
of Texas, Houston Division on November 15, 2019.
10. Monday, November 18, 2019 - Trial in Civil Action No., 4:17-cv03829, Webb, Kimberly v. City of Huntsville, Southern District of Texas,
Houston Division on November 18, 2019.
11. Tuesday, November 19, 2019 - Preparation and deposition in Case No.
8080338, Housman v. Golden Customer Care, LLC, Before the Labor
Commission, State of Utah – Adjudication Division
12. Thursday, November 20, 2019 - Preparation and deposition in Cause
No. 2019-19896, David Vanderschee v. Intertek USA, Inc. 269th Harris
County, Texas, on November 20, 2019.
For these reasons, Petitioners seek a 21-day extension of the deadline to file
their petition for writ of certiorari.

Page 6

Course of Proceedings & Judgment Sought to be Reviewed
Respondent Ryan Cole and his parents filed suit asserting various claims
arising from an armed encounter with police. Cole’s parents sued Petitioners Officer
Hunter and Lt. Cassidy alleging they violated Cole’s Fourth Amendment right not
to be subjected to excessive force. The Coles also sued Officer Carson claiming he
violated Cole’s rights under the Fourth and Fourteenth Amendments by allegedly
lying and concealing evidence to protect Officer Hunter and Lt. Cassidy. The District
Court denied Officer Carson’s Motion to Dismiss and denied Officer Hunter’s and
Lt. Cassidy’s Motion for Summary Judgment, rejecting all Officers’ immunity
defenses. The Fifth Circuit Court dismissed the Officers’ appeals. Cole v. Carson,
802 F.3d 752 (5th Cir. 2015) (“Cole I”). After an unsuccessful Petition for Rehearing
En Banc, rejected by the Fifth Circuit Court, all three Officers petitioned for
certiorari and this Court granted the Petition, vacated the first panel decision, and
remanded for reconsideration in light of Mullenix v. Luna, 136 S.Ct. 305 (2015).
Hunter v. Cole, 137 S.Ct. 497 (2016). The same three Judge panel issued a second
decision after remand, reinstating the first panel decision and rejecting
reconsideration of Officer Carson’s qualified immunity defense and again denying
Officer Hunter’s and Lt. Cassidy’s immunity defenses. Cole v. Carson, 905 F.3d 334
(5th Cir. 2018) (“Cole II”). The Officers timely filed a Petition for Rehearing En
Banc which the Fifth Circuit Court granted (see attached). On August 20, 2019, the
Page 7

Fifth Circuit Court sitting En Banc rejected Officer Carson’s request for
reconsideration of his immunity defense to the Fourteenth Amendment claim, and a
majority of the En Banc Court denied the qualified immunity defenses of Officer
Hunter and Lt. Cassidy over the dissent of six Judges. Cole v. Carson, ___ F.3d ___,
2019 WL 3938014 (5th Cir. 2019) (“Cole III”) (see attached Opinion).
Pursuant to Rule 13, the Petition for Writ of Certiorari is currently due
November 18, 2019 – which is 90 days after entry of the Fifth Circuit Court’s En
Banc Judgment. Petitioners Officer Carson, Officer Hunter and Lt. Cassidy request
an additional 21 days by which to file their Petition for Writ of Certiorari.
Certificate Of Conference
Petitioners’ counsel and Respondents’ counsel conferred and Respondents do
not oppose the requested 21-day extension of time for Petitioners to file a petition
for writ of certiorari.
Prayer
For these reasons, Petitioners request that their current deadline of November
18, 2019 to file a petition for writ of certiorari be extended 21 days to December 9,
2019.

Page 8

Respectfully submitted,
__/s/James T. Jeffrey, Jr.__
James T. Jeffrey, Jr.
LAW OFFICES OF JIM JEFFREY
3200 W. Arkansas Lane
Arlington, Texas 76016
(817) 261-3200
William S. Helfand
Norman Ray Giles
LEWIS, BRISBOIS, BISGAARD
& SMITH, LLP
24 Greenway Plaza, Suite 1400
Houston, Texas 77046
(713) 659-6767
ATTORNEYS FOR PETITIONERS

Page 9

